*

No.

IN THE
SUPREME COURT OF THE UNITED STATES

HAROLD HOSKINS

— PETITIONER

(Your Name)
VS.
SUPERINTENDENT KAUFFMAN
SCI-HUNTINGDON
— RESPONDENT(S)

PROOF OF SERVICE

«

HAROLD HOSKINS

________________, do swear or declare that on this date,
I,
SEPTEMBER 8th
, 20 _21, as required by Supreme Court Rule 29 I have
served the enclosed MOTION FOR LEAVE TO PROCEED IN FORMA PAUPERIS
and PETITION FOR A WRIT OF CERTIORARI on each party to the above proceeding
or that party’s counsel, and on every other person required to be served, by depositing
an envelope containing the above documents in the United States mail properly addressed
to each of them and with first-class postage prepaid, or by delivery to a third-party
commercial carrier for delivery within 3 calendar days.
The names and addresses of those served are as follows:
DISTRICT ATTORNEY OFFICE OF LYCOMING COUNTY. PA.
DISTRICT ATTORNEY
48 WEST THIRD STREET
WILLIAMSPORT, PA. 17701

I declare under penalty of perjury that the foregoing is true and correct.
Executed on September 8th

20JLL

(Signature)
HAROLD HOSKINS #JZ-4866

